1
CERTIFICATE OF SERVICE

The undersigned certifies that on March 4, 2020, he served, by putting in the
mail by way of the United States Postal Service, first-class mail:
re 19-635, the Brief of Amicus Curiae David Boyle in Support of Respondents,
addressed to the counsel listed below, each receiving three copies of the document;
and to the Court, is presently putting in the mail, with this Certificate, forty-one
copies of that document, one of them being unbound.

List of counsel:
Jay Alan Sekulow
Counsel of Record
Constitutional Litigation and Advocacy Group, P.C.
1701 Pennsylvania Ave, NW, Ste. 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw.com
Counsel for Petitioner Donald J. Trump, President of the United States in 19-635
Jerry D. Bernstein
Counsel of Record
Blank Rome LLP
1271 Avenue of the Americas
New York, NY 10020
(212) 885-5511
jbernstein@blankrome.com
Counsel for Respondent Mazars USA, LLP in 19-635
Carey R. Dunne
Counsel of Record
New York County District Attorney’s Office
One Hogan Place
New York, NY 10013
(212) 335-9000
dunnec@dany.nyc.gov
Counsel for Respondent Cyrus R. Vance, Jr., in His Official Capacity as District
Attorney of the County of New York in 19-635

2
March 4, 2020

Sincerely and respectfully,
David Boyle
Counsel of Record
P.O. Box 15143
Long Beach, CA 90815
dbo@boyleslaw.org
(734) 904-6132

